                                                                                Office ofInspector General

                                                                                u.s. Department of Homeland Security
                                                                                Washington, DC 20528




                                                                                 Homeland
                                                                                 Security
                                                 SEP 2 7 2011

MEMORANDUM FOR:                      Nancy Ward
                                     Regional Administrator, Region IX
                                     Federal Emergency Management Agency

FROM:                                Matt Jadacki III        ~ Jl ~ ,
                                     Assistant Inspect~m;~
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                      County ofSonoma, California
                                     FEMA Disaster Number 1646-DR-CA
                                     Audit Report Number DS-II-13

We audited public assistance (P A) grant funds awarded to the County of Sonoma, California
(County), Public Assistance Identification Number 097-99097-00. Our audit objective was to
determine whether the County accounted for and expended Federal Emergency Management
Agency (FEMA) grant funds according to federal regulations and FEMA guidelines.

The County received a PA award of$3.81 million from the California Emergency Management
Agency (Cal EMA) 1, a FEMA grantee, for debris removal, emergency protective measures, and
permanent repairs to facilities and roads damaged by severe storms, flooding, landslides, and
mudslides that occurred March 29 through April 16, 2006. The award provided 75% FEMA funding
for 20 large projects and 46 small projects? This audit covered the period from March 29,2006,
through June 3, 2011 We audited six completed large projects totaling $1.49 million, or 39% of the
total award (see table 1 of exhibit, Schedule of Projects Audited). We also performed a limited
review of 13 additional completed large projects, totaling an additional $1.46 million, to identify
unused funds that should be put to better use (see table 2 of exhibit, Schedule of Projects Audited).

We conducted this performance audit pursuant to the Inspector General Act of1978, as amended,
and according to generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit according to the statutes, regulations, and FEMA policies and guidelines in
effect at the time of the disaster.


I At the time of the disaster, the grantee's name was the Governor's Office of Emergency Services, which became part of 

Cal EMA on January 1,2009. 

2 FEMA regulations in effect at the time of the disaster set the large project threshold at $57,500. 

We discussed issues related to this audit with FEMA, Cal EMA, and County officials; reviewed
judgmentally selected samples of project costs (generally based on dollar value); and performed
other procedures considered necessary to accomplish our objective. We did not assess the adequacy
of the County’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of the County’s methods of
accounting for disaster-related costs.


                                              RESULTS OF AUDIT

The County generally expended and accounted for FEMA funds according to federal regulations and
FEMA guidelines. However, we identified (1) $1,209,086 of unused federal funds that should be
put to better use, (2) $521,355 of ineligible project costs, and (3) $1,176 in unsupported, duplicate
project costs.

Finding A: Funds Not Used

The amount FEMA estimated and approved for 15 large projects exceeded the amount the County
charged to the projects by $1,209,086. Further, the County had completed work on all of these
projects by December 2008. Therefore, FEMA should deobligate $1,209,086 and put those federal
funds to better use. The County agreed with this finding.

Finding B: Ineligible Project Costs

County officials did not perform the FEMA-approved scope of work for Project 225, which included
roadway repairs and hazard mitigation, and did not obtain prior approval from FEMA to do so.
Specifically, the County modified the scope of the roadway repairs at the request of the California
Integrated Waste Management Board.3 The Board requested, and County officials agreed, to use
tire-derived aggregate (i.e., recycled, shredded tires) and the construction methodology that it
required, rather than what FEMA originally specified. County officials agreed to do this to
demonstrate to both other communities and the California Department of Transportation the
effectiveness of the alternative material in this type of application. However, the use of the material
required a modification to the project design, materials, and construction methodology. This, in
turn, significantly modified and expanded the footprint of the project and its related costs.
Consequently, project costs escalated from an estimated $291,048 to actual costs of $521,355.4
Further, although the County recorded $268,215 of this amount as hazard mitigation, our review
determined that the County did not perform the hazard mitigation work as approved.

Federal regulations and FEMA guidelines regarding scope of work eligibility and documentation
stipulate that—




3
  County officials, in their records and discussions with us, identified the agency making the request as the State Solid
Waste Board. However, at the time of the disaster, the responsible agency was the California Integrated Waste
Management Board. The Board’s responsibilities were transferred to the California Department of Resources Recycling
and Recovery (CalRecycle) in 2010.
4
  The total costs of $521,355 charged to the Project consisted of $253,140 for repairs and $268,215 for mitigation.
                                                            2

       Grantees or subgrantees must obtain the prior approval of the awarding agency whenever any
       revision of the scope or objectives of the project (regardless of whether there is an associated
       budget revision requiring prior approval) is anticipated. (44 CFR 13.30(d)(1).)

       Work performed must derive from the project’s FEMA-approved scope to be eligible for
       federal funding. (FEMA 322, October 1999, pp. 73 and 115–116; and FEMA 323, September
       1999, pp. 21–22 and 52.)

Therefore, we question total project costs of $521,355 as ineligible because the County did not
complete the scope of work, including hazard mitigation, as approved, and did not receive prior
FEMA approval for the change. County officials agreed with this finding.

Finding C: Duplicate Project Costs

Project 628 included a duplicate charge from one of the County’s vendors. County officials
identified this charge and stated that they intend to revise their claim, but had not done so as of the
end of our fieldwork. Therefore, we question $1,176 in unsupported (duplicate) funding. The
County agreed with this finding.


                                      RECOMMENDATIONS

We recommend that the FEMA Region IX Administrator, in coordination with Cal EMA:

Recommendation #1: Deobligate $1,209,086 (federal share $906,815) and put those federal funds
to better use (finding A).

Recommendation #2: Disallow $521,355 (federal share $391,016) in ineligible costs for Project
225 (finding B).

Recommendation #3: Disallow $1,176 (federal share $882) in unsupported duplicate charges for
Project 628 (finding C).


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County, Cal EMA, and FEMA officials during our audit,
and included their comments in this report, as appropriate. We also provided written summaries of
our findings and recommendations in advance to these officials and discussed them at exit
conferences held with the County on June 3, 2011, FEMA on June 8, 2011, and Cal EMA on June
10, 2011. County officials concurred with each finding. FEMA and Cal EMA officials are
withholding comment until after we issue our final report.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the recommendations.

                                                    3

Until your response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. To promote transparency, this report will be posted to our
website, with the exception of sensitive information identified by your office. Significant
contributors to this report were Humberto Melara, Devin Polster, and Jeff Flynn.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Audit Liaison, FEMA Region IX
       Administrator, FEMA
       Audit Liaison, FEMA (Job Code G-11-016)
       Audit Liaison, DHS




                                                 4

                                                                                                     EXHIBIT


                                         Schedule of Projects Audited

                                      March 29, 2006, through June 3, 2011

                                        County of Sonoma, California

                                      FEMA Disaster Number 1646-DR-CA


                                       Table 1: Projects in Initial Audit Scope
                                                                                                Questioned
                                   Project Award                               Funds Not Used     Costs
          Project Number                                 Project Charges
                                     Amount                                      (Finding A)    (Findings
                                                                                                 B & C)
                 225          $291,048            $521,355                                        $521,355
                 628            248,040            246,864                                           1,176
                 711            311,945             55,754          $256,191
                 754            223,439             47,027           176,412
                 800            175,247            175,247
                 801            237,512            237,512
               Subtotal     $1,487,231          $1,283,759          $432,603                      $522,531
                         Table 2: Projects Reviewed for Unused Funding
                           Project Award                         Funds Not Used
          Project Number                       Project Charges
                              Amount                               (Finding A)
                174           $165,881             $50,022          $115,859
                223              81,458             54,916             26,542
                224              80,258             46,526             33,732
                431              79,961             40,895             39,066
                433              62,425             54,897              7,528
                526              80,735             54,449             26,286
                613             199,257             54,175           145,082
                634             122,857             83,239             39,618
                657              61,395             47,834             13,561
                712             130,611             62,691             67,920
                747             110,044             41,248             68,796
                749             188,341             79,841           108,500
                798              92,370               8,377            83,993
             Subtotal       $1,455,593            $679,110          $776,483
               Total5       $2,942,824          $1,962,869        $1,209,086                      $522,531




5
    Some dollar amounts have been rounded to the nearest dollar for consistency.
                                                             5
